No. TBA
In The Supreme Court of the United States
ROY HOWARD MIDDLETON, JR.
Petitioner,
versus
SECRETARY, FLORIDA DEPARTMENT OF CORRECTIONS, Mark S. Inch
and
ATTORNEY GENERAL OF FLORIDA, Ashley Moody,
Respondent(s).
PROOF OF SERVICE
I, ROY HOWARD MIDDLETON, JR „ Petitioner, a prisoner confined in a
Florida penal institution, do swear or declare that on this
day of
2020, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT
OF CERTIORARI upon this Court and [(without the accompanying APPENDIX)]
upon the following parties by placing an envelope containing the above documents,
properly addressed to each of them and with first-class postage prepaid, into the
institution’s internal mail system for delivery via the United States Postal Service. I
further certify that all parties required to be served have been served.
The names and addresses of those served are: Office of the Clerk, Supreme
Court of the United States, 1 First Street Northeast, Washington, DC 20543-0001;
Office of the Attorney General, PL-01, The Capitol, Tallahassee, Florida 323991050.
I declare under penalty of perjury that the foregoing is true and correct.
Is/

•Y HOWARD MIDDLETON, JR.
Petitioner
Executed on this

day of

2020

